W A I V E R
SUPREME COURT OF THE UNITED STATES
No.

21-117

Vernon Deck

Wells Fargo Bank, N.A., as Trustee, et al.,
(Petitioner)

(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):
Petitioner's "List of Parties" includes persons who were not parties to the District Court action nor 9th Circuit appeal.
My firm represents the only actual respondents: Wells Fargo Bank, N.A., as Trustee for Option One Mortgage Loan
Trust 2003-1, Asset-Backed Certificates, Series 2003-1; PHH Mortgage Corporation; and Power Default Services, Inc.

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:
July 30,2021

Date:

(Type or print) Name Eric D. Houser
Mr.
Firm

HOUSER LLP

Address

9970 Research Drive

City & State

Irvine, CA

Phone

949-679-1111

Ms.

Mrs.

Miss

Zip 92618
Email

ehouser@houser-law.com

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

Vernon Deck, 112 Hawthorne Loop, Roseville, CA 95678

